BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No.
EE HOONG LIANG ,

Petitioner,
V.

PANIRCELVAN KALIANNAN; TONG LAYYEEN
GIOVANNA; TAN HOCK SENG; ROGER TEO KOK WEI;
TEO KHIM HO; CHANG MUN KUMCHRISTINA; KOH
HWEE BEN ERIN; NG YIM HAR; KOH THONG JUAY;
TONG SIEW GEOK,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Petition for a Writ of Certiorari
contains 7,648 words, excluding the parts of the
Petition that are exempted by Supreme Court Rule
33.l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on September 22, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
· Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

